<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2003</title>
<body><pre>[Senate Hearing 107-]
[From the U.S. Government Printing Office]



 
                      ENERGY AND WATER DEVELOPMENT
                        APPROPRIATIONS FOR 2003

                              ----------                              

                                      Wednesday, February 27, 2002.

                      U.S. ARMY CORPS OF ENGINEERS

                               WITNESSES

HON. MIKE PARKER, ASSISTANT SECRETARY OF THE ARMY (CIVIL WORKS)
LIEUTENANT GENERAL ROBERT B. FLOWERS, CHIEF, CORPS OF ENGINEERS
MAJOR GENERAL ROBERT H. GRIFFIN, DEPUTY COMMANDING GENERAL FOR CIVIL 
    WORKS
ROB VINING, CHIEF, PROGRAM MANAGEMENT DIVISION, DIRECTORATE OF CIVIL 
    WORKS
BRIGADIER GENERAL EDWIN J. ARNOLD, JR.
CECIL BRYANT, MISSISSIPPI VALLEY DIVISION
BRIGADIER GENERAL STEVEN R. HAWKINS
GERALD W. BARNES, GREAT LAKES AND OHIO RIVER DIVISION
BRIGADIER GENERAL M. STEPHEN RHOADES
THOMAS WATERS, NORTH ATLANTIC DIVISION
BRIGADIER GENERAL PETER MADSEN
TONY LEKETA, SOUTH ATLANTIC DIVISION
BRIGADIER GENERAL RONALD L. JOHNSON
DAVID A. LAU, PACIFIC OCEAN DIVISION
BRIGADIER GENERAL DAVID F. MELCHER
WILLIAM DAWSON, SOUTHWESTERN DIVISION
BRIGADIER GENERAL DAVID A. FASTABEND
MICHAEL WHITE, NORTHWESTERN DIVISION
BRIGADIER GENERAL LARRY DAVIS
STEVE STOCKTON, SOUTH PACIFIC DIVISION
    Mr. Callahan. Welcome. Mr. Visclosky will have a motion for 
the committee to consider, but we cannot do that until we have 
a quorum. So we will just go ahead.
    Good morning, gentlemen. Welcome.
    This morning we are pleased to have before us, for our 
first hearing of the year, the Honorable Mike Parker, our 
former colleague and now the Assistant Secretary of the Army 
for Civil Works; Lieutenant General Robert Flowers, the Chief 
of Engineers; Major General Robert Griffin, the Director of 
Civil Works, and Mr. Rob Vining, Chief of the Program 
Management Division.
    And we would also like to welcome all of you Division 
Commanders this morning to see democracy in process, and to try 
to grasp a better understanding of some of the problems we go 
through in this process to make certain that you all have the 
resources you need to perform your duties.
    This will be Secretary Parker's first appearance before our 
panel, but he is not stranger to the work we do, because he 
served on this very Committee during his years of service in 
the Congress. And Mr. Secretary, we look very much forward to 
working with you over the next several years on the important 
water resource issues facing the Nation.
    Secretary Parker and General Flowers, the President's 
budget request for the Corps once again presents us with a 
great challenge. The amount requested is over $450 million or 
about 10 percent below the amount we appropriated last year.
    We had hoped that over the last year our friends at the 
Office of Management and Budget would have come to better 
appreciate the value of the Corps Civil Works program to the 
Nation. Unfortunately, that does not seem to be the case. Mr. 
Visclosky and I did meet with Director Daniels to discuss the 
Corps' budget, and I understand that many of you did too, and 
we are appreciative of your efforts in that respect, to make 
certain that they understood your mission.
    Even though we were not successful this year, I remain 
confident we will be able to convince the administration that 
these inadequate budget requests for the Corps are really a 
disservice to the Nation.
    We will place all of your written statements in the record, 
and you may summarize them as you wish.
    I would like to remind my colleagues that we will try to 
adhere to the 5-minute rule when we get to questions. And 
before I recognize Secretary Parker, I would like to recognize 
Congressman Visclosky for any opening remarks he would like to 
make.
    Mr. Visclosky. Thank you, Mr. Chairman.
    I would also want to join you in congratulating Secretary 
Parker. Mr. Secretary, I look forward to working with you, and 
gentlemen, I appreciate your duties and responsibilities and 
what you have done for this country and appreciate you being 
here as well.
    Thank you, Mr. Chairman.
    Mr. Callahan. Thank you. Mr. Secretary, good morning.
    Mr. Parker. Good morning. First of all, let me say that it 
is a joy and a pleasure to come before my old committee and be 
able to visit with you and talk about the Corps and the future 
of the Corps. Due to time constraints, which you have expressed 
to me, I would ask that my written statement be submitted for 
the record, and that so we can----
    Mr. Callahan. For the record, all of your written 
statements will be printed in their entirety in the record.
    Mr. Parker. I am very glad to be here with General Griffin 
and Rob Vining, and especially the 50th Chief of Engineers of 
the Corps, General Flowers. One of the great things about being 
in this position is that I did not have to create a 
relationship with General Flowers because he was down in 
Vicksburg when I was sitting on the Committee, and we developed 
a relationship then, so it helped to be able to move in to this 
position in October, and pretty much hit the ground running, 
and that has been very, very helpful.
    Let me first say that OMB has had a tough job when you look 
at the change that we have had since September the 11th. We 
have had a situation where the world has changed. We are moving 
into deficit spending now with the President's primary 
priorities being homeland security and national defense, and 
underpinning that, the economy. There have been some tough 
choices made.
    And we have had long discussions with OMB on many different 
parts of the budget, and I know full well that this process is 
just beginning. I look forward to working with all of you for 
us to come to a bill that is workable for this country, that 
achieves what needs to be achieved for this country, that will 
be a joint bill that will be supported by the President and by 
Congress, and that will meet the needs that we know that the 
American people have. So I look forward to your questions.
    [The prepared statement of Mr. Parker follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Callahan. Thank you, Mr. Secretary.
    General Flowers.
    General Flowers. Mr. Chairman, members of the Subcommittee.
    I would just like to emphasize something that I get 
questioned about quite frequently, and that is, why is the 
Corps of Engineers in the Army, and what value is it to the 
Nation? And I would like to just cite the response to 9/11 as a 
great example of why it is important.
    Literally within an hour of the attacks, we had Corps 
employees and soldiers at both sites: the World Trade Center 
and the Pentagon. And at the World Trade Center, we helped with 
the evacuation of lower Manhattan, using some of our floating 
plants. We provided emergency dredging so that dredges could 
get in, barges could get in close to the site to help with 
debris removal. We supported the urban search and rescue teams 
with structural specialists. We were able to provide expertise 
in debris removal to facilitate the site cleanup, and we were 
able to help on Staten Island with the forensics of the 
material removed from the site, and we are still working there 
with the City of New York.
    And I think most significantly at the Pentagon, the area of 
the Pentagon that was hit by the aircraft was fortunately the 
portion of the Pentagon that had just been renovated, and it 
was a Corps of Engineer design brought about by our expertise 
in experimentation and force protection and anti-terrorism 
protection that put steel in that portion of the Pentagon, some 
fabric in the walls and blast-proof windows, that we think 
saved a number of lives, and was reported on ``60 Minutes.''
    And so felt very proud of the response that the 
organization had to the attacks on the country, and we are 
continuing today with protecting infrastructure and serving, 
and I look forward to your questions as well.
    [The prepared statement of General Flowers follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Callahan. Thank you.
    Any other panelist wish to make an opening statement? Mr. 
Vining, do you have an opening statement?
    Mr. Vining. No.
    Mr. Callahan. Well, let me just say to you that this has 
been a long year. And not only have we experienced 9/11 and the 
problems that incurred as a result of that tragedy, we have had 
an opportunity to work with the Corps during the past year to 
understand your direction and your mission and your needs. 
During this period of time both Congressman Visclosky and I 
have gone to Mitch Daniels at OMB and the White House. We have 
met with him, tried to explain your mission to them. I 
understand also, Mr. Secretary, that you as well as the 
Secretary of the Army have also visited OMB, trying to outline 
your need.
    The administration on the one hand gives every indication 
that you are a very vital part of our homeland security, as 
well as our national defense and our activities overseas. You 
are much like the National Guard.
    We had the opportunity one night, when I chaired Foreign 
Operations, to be in a meeting with then President Clinton and 
the Chairmen of the Joint Chiefs of Staff when we were first 
talking about going into Bosnia. And they needed 5,000 men, and 
we had just experienced the Gulf War and I had experienced 
going to the airports and to the armories to see our troops off 
and seeing the crying mothers and wives and children as their 
father left to defend the Nation.
    Add I told the President that night, I said, ``I assume, 
since you only need 5,000 men, that you will not have to call 
up the National Guard and I won't have to go through that 
again.'' ``No,'' he said, ``quite the contrary. The 2,500 or 
the 5,000 will have to be reservists.''
    Yet when the Pentagon presents their budget, and when OMB 
finishes writing it, they seem to forget that we need a 
National Guard. We cannot operate without a National Guard, and 
we cannot effectively operate without the Corps of Engineers. I 
mean that is the real world.
    However, and I think the deficiency lies in the bowels of 
OMB, I do think that the Pentagon and certainly not your 
office, Mr. Secretary, or your office, General, but the 
Pentagon is letting you down as well, because they are not 
standing up for you. The President requested a $40 billion 
increase for our national defense. It would have been very 
simple for the President to say $41 billion, or $40 billion and 
500 million, to make certain that our homeland security is 
handled, or you have the resources to handle it in a way that 
you responded in New York.
    Many of us had the opportunity to go to New York and to see 
your crew in action and to appreciate what you were doing 
there. And thank goodness we had a capability of going in and 
dredging that channel next to the World Trade Center so we 
could begin the debris removal that you all so effectively did.
    So I don't know where the problem is, and I don't quite 
understand how OMB operates. It is a strange organization, 
rather clandestine in the way they operate, and they never give 
you any real justification.
    But our mission, as far as this subcommittee is concerned, 
is to make certain that you are adequately funded with the 
resources you will need to perform your assigned obligations to 
the country and to the Department of Army and to the citizens, 
for the fiscal year 2003. That is going to be our 
responsibility. The President has in a sense said he needs 
about $2.3 trillion to operate the Federal Government next 
year. He needs that for Social Security. He needs it for 
including the $40 billion extra for national defense. We are 
not going to violate the President's level of funding. We are 
not going to create a larger deficit by giving you more 
resources. Indeed, we are going to take it from other areas of 
Government and reshuffle some of the figures that no doubt will 
be coming down, but stay within the boundaries of what the 
President has requested. We are not going to create a larger 
deficit by funding you adequately. We are going to fund you 
adequately and cut some programs somewhere else in Government 
that we feel might be over funded in some way.
    So we are going to do that. I think the committee will echo 
what I am telling you. I think that we will, as this committee 
has always done, make certain that you have the resources that 
are necessary to give you the professional tools that you need 
to do your job. But in this situation, and with this new 
emphasis on homeland security, I am just shocked and amazed 
that OMB completely ignores the request of professionals such 
as you, completely ignores my request when I am a supporter of 
this administration. You know, I respond to the President's 
requests every time he calls on us for anything of importance 
to him. I am not getting anything personally out of getting you 
additional money for the Corps of Engineers. It is an 
understanding that obviously OMB does not have. I do not think 
George W. Bush knows this is even going on. I do not think that 
if George Bush had anything to do with the innards of the 
budget request for the Corps, that he would tolerate it. I 
think it is entirely within the bowels of OMB. And how we 
correct that, I do not know.
    But this year you all have done your job, contrary to last 
year when you came before this committee and you just echoed 
what the administration had requested, and said you are good 
soldiers. And we charged you to go back to your districts, to 
contact your members of Congress, and you all have done that. 
You have had dialogue with them. You have explained your 
mission to them. You have explained the projects in their 
respective districts. And you also have requested OMB to 
recognize your importance, especially when they are making the 
statement saying that you are important. We need you. We have 
to have you in homeland security now. There is such an emphasis 
there, that we need you even more than we ever had. And at the 
same time we allow these bureaucratic imbeciles at OMB to come 
in and say, ``Well, we don't need to fund them because I don't 
like them.''
    Somehow that has to stop. And the only way I think we are 
ever going to get any help is to get the Pentagon, outside the 
Army, to get Secretary Rumsfeld, and everyone over there to 
fight your battle as well in advance. So I am optimistic that 
we will find, by reshuffling other priorities that the 
President has requested, that we will be able to find the 
necessary monies to give you the resources you need to perform 
your duties during the fiscal year 2003.
    Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, because the Subcommittee on 
Energy and Water Development will be dealing with national 
security and other sensitive matters at its hearing on atomic 
energy defense activities, I move that the hearing on March 7, 
2002 be held in Executive Session.
    Mr. Callahan. The clerk will call the roll.
    The Clerk. Mr. Callahan.
    Mr. Callahan. Yes.
    The Clerk. Mr. Rogers.
    [No response.]
    The Clerk. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Yes.
    The Clerk. Mr. Latham.
    [No response.]
    The Clerk. Mr. Wicker.
    Mr. Wicker. Aye.
    The Clerk. Mr. Wamp.
    [No response.]
    The Clerk. Mrs. Emerson.
    Mrs. Emerson. Yes.
    The Clerk. Mr. Doolittle.
    [No response.]
    The Clerk. Mr. Young.
    [No response.]
    The Clerk. Mr. Visclosky.
    Mr. Visclosky. Aye.
    The Clerk. Mr. Edwards.
    Mr. Edwards. Aye.
    The Clerk. Mr. Pastor.
    Mr. Pastor. Aye.
    The Clerk. Mr. Clyburn.
    [No response.]
    The Clerk. Mrs. Roybal-Allard.
    Ms. Roybal-Allard. Aye.
    The Clerk. Mr. Obey.
    [No response.]
    Mr. Callahan. Motion passed.
    Mr. Visclosky, opening remarks?
    Mr. Visclosky. Thank you very much. I find it interesting 
that the Office of Management and Budget, apparently for the 
first time, rated the performance of each agency in its budget 
submission. I appreciate the Chairman's critique on the 
performance of OMB relative to the Corps' budget this year. 
Relative to your budget, I would certainly echo the chairman's 
remarks, and I do think our colleagues, in a bipartisan 
fashion, share that concern.
    The Chairman mentioned his concern about national security. 
I also serve on the Defense Subcommittee of this full 
Committee, and share his very serious concern in that regard.
    I also have a concern about the personal security of our 
citizens, because I realize that people die in natural 
catastrophes. They die in floods. Property is damaged and they 
are harmed, and their families are harmed. And that the job of 
the Corps of Engineers is very important as far as the 
individual and personal security of the citizens of this 
country. And I also do not believe that we can have a secure 
society, that we can have successful political institutions, if 
people do not have a hope in their economic future, and if we 
do not foster that hope by making an investment in our economic 
infrastructure. And again, I understand the gentlemen at the 
table support that proposition as well.
    So, obviously, I too am very concerned about the 
submission, and would note that your O&M backlog, for fiscal 
year 2001, was at $415 million. For the current fiscal year it 
is at $702 million. And prospectively, if the shadows of the 
future remain unaltered for next fiscal year it will be $884 
million. The construction backlog, during the current fiscal 
year is estimated to be $38 billion. Next year, again if 
changes are not made, it is estimated to be $44 billion.
    I do appreciate the fact that 30 projects are funded for 
completion this year. I also appreciate the fact that 54 
projects are funded to optimum level, and would acknowledge 
that, as well as the fact that the largest projects in your 
budget are also funded near optimum level. But I would note 
that 140 projects are funded below optimum level. And if the 
budget is not changed, approximately 200 contracts that are in 
place will have to be cancelled at some point in time.
    So certainly I would assure the Chairman of my commitment 
to work with him and everyone on the subcommittee as well as 
the department, to do our very best to make sure that the 
resources necessary are there.
    At this point, Mr. Chairman, I would yield my time.
    Mr. Callahan. Thank you. Contrary to our normal procedure, 
only one member of this subcommittee was to bring me a gift 
this morning. And that happens to be Mrs. Emerson. So, the 
Chairman, with your understanding, will recognize her first.
    Mrs. Emerson.
    Mrs. Emerson. Oh my goodness. Thank you, Mr. Chairman. I 
wasn't ready.
    Mr. Callahan. She brought me a cigar. That was what did it. 
[Laughter.]
    Mrs. Emerson. Oh my gosh. Mr. Secretary, Generals, good to 
see you all.
    I think my first question will go to you, Mr. Secretary. 
Can you just give us some idea, I mean we've talked about 
numbers, but kind of in a jobs-related way, can you talk to us 
a little bit about how many jobs are directly and indirectly 
dependent on the Corps' Civil Works program?
    Mr. Parker. First of all, I want to know where my gift is. 
[Laughter.]
    Mrs. Emerson. Yours is coming.
    Mr. Wicker. This is on the record.
    Mr. Callahan. I was afraid of this.
    Mr. Visclosky. Mr. Chairman, could we go into Executive 
Session now? [Laughter.]
    Mr. Parker. From a jobs standpoint, let me try to do it in 
a macro sense. All economists pretty much agree that over the 
next 20 years trade will either have to double trade or we 
cannot maintain the standard of living in this country, cannot 
have it increase. In order to double that trade, since 98 
percent of all trade goes over navigable waterways, then you 
have to have the structures in place in order to move that 
trade. In a real sense, because of different things that have 
happened over the last 30 years, different priorities of the 
government, we have not invested in infrastructure as we should 
have, and our infrastructure at this point in time cannot 
handle a doubling of trade.
    And these are projects that cannot be built overnight. It 
takes a long time, and one of the reasons it takes so long is 
because the studies that we require, that Congress has required 
come on the environmental side, the economic side, and you just 
cannot build these structures quickly. So it is imperative for 
this country to make a decision to put the money in place to 
make these projects work, put them in place for these future 
generations.
    And when it comes down to actual jobs and the number of 
jobs that are created, it is stated basically that for every 
billion dollars that is invested, you get around 40,000 jobs. 
Now, it is interesting, whenever you look at our economy as a 
whole, over one-third of our trade is going out of the West 
Coast now, and when you look at the impact that it has, 
California did a study that for every dollar that was invested 
the return was--Rob, what was that, $161?
    Mr. Vining. Yes, sir.
    Mr. Parker. $161 return. That is a phenomenal return on 
investment when it comes to jobs and trade, because these 
things have a tremendous multiplying effect, and California now 
would be rated as the fifth largest country. If it were listed 
as a country, it would be the fifth largest country in the 
world, and a lot of that is because of the trade side. And it 
all depends on projects that are the responsibility of the 
Corps of Engineers.
    Mrs. Emerson. Well, do I still have time for a follow-up 
question, Mr. Chairman?
    Mr. Callahan. Yes.
    Mrs. Emerson. Speaking of that, as you well know, the 
Mississippi Valley has some of the most productive agricultural 
land in the world, but it really is dependent on the 
Mississippi River and Tributaries project to help make it so. 
Can you describe specifically for that project, the impacts in 
terms of project progress, delay costs and jobs, resulting from 
the low level of funding that was recommended, what the impact 
would be?
    Mr. Parker. Let me refer that to General Flowers.
    Mrs. Emerson. Okay. General.
    General Flowers. Ma'am, having served there, I have some 
working knowledge of the Lower Miss. What tends to happen if we 
underfund a project like the MR&T, is that we defer providing 
protection to the people that we have committed to. In other 
words, it takes longer to complete the construction of the 
levees, so there is greater risk for a longer period of time. 
We are not able to work efficiently on the projects, so it ends 
up costing us more to complete the projects, the various 
elements of the MR&T project. And I think it stretches out the 
overall length of time it will take you to provide the level of 
protection that was legislated for the valley.
    Mrs. Emerson. So do you have any sense of why OMB would 
recommend such an underfunding of this project since lives are 
at stake here?
    General Flowers. No. I know there are some tough calls to 
be made in wrestling with operating in a deficit environment. 
And I think our job is to articulate what the consequences are, 
but the decision that has to be made is a political one. I can 
tell you that my experience and what we have been able to apply 
would tell us that investments in infrastructure and 
investments in providing protection to people are sound 
investments, and I would leave it at that.
    Mrs. Emerson. Do you know how much of the $139 million in 
the fiscal year 2002 supplemental appropriations bill for anti-
terrorism force protection is included for protection of MR&T 
infrastructure?
    General Flowers. About 1 million of that is in the MR&T 
structure. We have done an assessment, or are in the process of 
doing an assessment of all of our infrastructure nationwide. 
That will be completed in April. But the 139 million that was 
placed in this fiscal year, was essentially in there as a page 
holder based on a very rough estimate of what it would take to 
provide some protection for infrastructure.
    Mrs. Emerson. So do you suspect that you are going to have 
to----
    Mr. Callahan. If the gentlelady has any further questions, 
she is going to have to go get another cigar. [Laughter.]
    Mrs. Emerson. Mr. Chairman, I want to thank you so much for 
letting me go first. I will go back to my office and be back in 
a little while. Thank you very much.
    Mr. Callahan. Mr. Edwards.
    Mr. Edwards. Thank you, Mr. Chairman.
    Secretary Parker, welcome back to this room where you have 
good friends on both sides of the aisle. It is good to see you. 
I am thrilled that the President made this appointment for you.
    And thank you all for your service to our country and these 
important programs and projects.
    I would normally not start out with Texas-related questions 
because I like to start out with some of the big picture 
national issues, but I think the Chairman and ranking member, 
as well as you, Mr. Secretary, have pointed out the 
difficulties in this proposed budget. So I will go to Texas to 
show some concrete examples of the real-world consequences of 
this budget, were it to be the final step, and not as you said, 
Mr. Secretary, the first step.
    And just to begin with, our state, as you know, was hit 
with a devastating hurricane last year, Hurricane Allison, that 
caused, at last count, somewhere in the vicinity of $5 billion 
in damage. Several major hospitals in Houston had to be shut 
down. Generations of medical research was lost that cannot be 
replaced for any amount of money. So I am not sure that the $5 
billion figure is not conservative.
    Had it not been for Army Corps projects, it could have been 
a $10 billion or a $15 billion hurricane. Who knows? But this 
budget, in my opinion, inadequately funds a proven need. And 
what proof do we need more than a $5 billion hurricane and then 
a flooding consequence to that, to show a need for investment.
    The Port of Houston, according to my numbers, the Port of 
Houston the first--and, Mr. Secretary, thank you for your 
comments about trade. I hope the American people will hear them 
in the months ahead. The Port of Houston is first in foreign 
tonnage, second in overall tonnage, the eighth largest port in 
the world. And yet, instead of a $67 million funding level, 
which would be an efficient level of funding that would best 
use the taxpayers' money with the least amount of waste, the 
budget request came in at $19 million. And I happen to know 
that was not the original request of the Corps. This is another 
example of setting back, slowing down and causing greater 
expense for a major project at a terribly important port for 
our country and its trade policy.
    For operation and maintenance in Texas, there is a $120 
million backlog. I am told $20 million of that is critical.
    The Dallas Floodway is an effort to see that we don't have 
a $5 billion flood in Dallas. This committee was very clear in 
the last Congress to move ahead with that, and I will ask a 
question about that in a minute.
    But my point is, and I know every member of this committee 
can talk in specifics about his or her respective state, what 
the impact of this is, and I hope, again, we will use this 
together on a bipartisan basis to get this budget back up to an 
adequate level.
    Mr. Secretary, if I could, I would ask you or any of your 
designees to specifically address the Dallas Floodway Extension 
Project, and I will defer some of the other specific questions 
if I run out of time to written questions. But the Dallas 
Floodway Extension Project, in particular. It has a signed PCA, 
the support of a local participants, local bond package passed 
several years ago, a positive benefit cost ratio, and the 
support of Congress. This committee's conference last year did 
direct the Corps to proceed with the project including the work 
on the Cadillac Heights feature.
    Is this, maybe in a general sense, is this project moving 
ahead? If not, could you help us explain why? And perhaps as a 
follow-up, if you could, I would like to know why this was not 
included in the President's budget request for 2003, and are 
there any decision documents currently being delayed by the 
administration regarding this project and why? The general 
question is what is the administration's position on this 
project?
    Mr. Parker. Well, OMB's position was they didn't want the 
project, and they turned around, and they basically turned the 
project down, and instructed us not to do anything. We stood by 
the project. And because of your intervention, Congressman 
Callahan's intervention, Senator Kay Bailey Hutchinson, and 
other people from Texas, we stood by that project.
    Mr. Edwards. Thank you for that.
    Mr. Parker. And we made sure, because it is a very good 
project. We also--if my memory serves me right, I think it was 
in report language, and they were going to have to--the 
recommendation, you have got to go back and get it into--it has 
already been done, but they were going to have to go back each 
year and put it into the bill, into the bill language itself.
    And so we have informed everybody of how it has to be done 
in order to make it work, but the project is ongoing, it is 
proceeding. And first contract has been awarded the 12th of 
February, the first contract was awarded, so it is moving 
forward.
    Now, as far as your question on the port, I think it is 
very important that people understand what trade means overall, 
and Houston is a primary port in this country. In 1959 8 
percent of our gross domestic product came from trade. Now it 
is 27 percent. So you can see the increase and the importance 
of trade over a period of time.
    And 20 percent of the jobs in this country are directly 
related to trade. So I think that everybody has to have an 
overview of how this whole thing fits in, and when you talk 
about the Port in Houston, it plays a vital role in the 
economic stability and the growth of this country. And the 
President understands that. He just came back from a trip on 
the Mississippi, and went down to New Orleans, to the Port of 
New Orleans. He understands that.
    General Flowers. I think there is also, sir, if I might, a 
military significance to our ports as well. There are 13 
military strategic ports that are a part of our Civil Works 
Deep Draft Navigation Projects that we maintain each year so 
that the country has the capability if we need to, to deploy 
strategically through our ports.
    Mr. Edwards. If I could finalize then, Mr. Chairman, by 
saying thank you, Mr. Secretary, for your leadership, and as 
the Chairman said, not always just going along to get along, 
standing up for what you think is right. That does not surprise 
any of us that have known you, and we appreciate and respect 
that approach to leadership.
    If I could submit for the record, Mr. Chairman, a letter 
from the Port of Houston Authority about the impact of this 
lower budget level, I would appreciate that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Edwards. And finally, if I don't have a chance to get 
an oral answer later on, if you could submit it in writing, I 
would like to see some sort of report to the Committee or the 
Chairman, and Ranking Member, of what the consequences, either 
in lives lost or in financial impact, if we don't have enough 
funding for security protection at all of the port facilities, 
the water supply facilities, flood control facilities, Inland 
Waterways--all the projects that could be at risk to terrorism 
if we don't get adequate funding somewhere inside or outside 
the Corps budget. What are the consequences financially and 
otherwise? I would appreciate that very much.
    [The information follows:]

    As directed by the report of the Committee of Conference 
accompanying the Energy and Water Development Appropriations 
Act, 2002, the Secretary of the Army will submit to the 
Appropriations Committees of the Congress a report that 
specifically identifies in detail all known physical security 
requirements that have surfaced since the terrorist attacks. 
This report is in preparation and will be submitted after 
clearance by the Office of Management and Budget. Due to the 
sensitive nature of information on the consequences of 
terrorist attacks, we will meet with you personally to discuss 
the details after the release of the report.

    Mr. Parker. Could I also respond to the statement you have 
talked about as far as the medical center? We have met with 
them. We are working with them now, along with the water 
district down there. We already have one project working with 
them now and are trying to combine some things with them to 
prevent that, and it is a major problem. It can happen again. 
And we have got a tremendous amount of support down there from 
the Texas delegation, from all the business leaders. This is a 
totally bipartisan thing, because you are talking about a very 
dangerous situation with lives being at risk, and property, and 
it is a major problem, and I have met with them personally. 
They have been up here. And we are working with them to try to 
resolve that situation.
    Mr. Edwards. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Mr. Callahan. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary, it is a delight to see you in the position 
you are in, a former colleague of ours in this body, and we are 
thrilled that you are in that position, and wish you all the 
best.
    And it is good to see the other witnesses here, General 
Griffin, my old divisional buddy, and General Flowers, and the 
rest of you.
    Mr. Secretary, what was your total request to OMB?
    Mr. Parker. I cannot answer that question. I am kidding. I 
wanted to say that and then pause, but decided I had better not 
do that. I didn't want you to come across the desk. [Laughter.]
    What I did, I came in kind of late in the process, so when 
I got confirmed in September, and then I was sworn in in 
October, a lot of things had already occurred on the 2003 
budget. And so this work had been, was being done. And what I 
did was--and some of the things I did not agree with--so what I 
did was, I went to the Corps, and I said, ``Tell me how can we 
most efficiently, what is the most we can use as far as taking 
money and efficiently use that money and put it to work in a 
utopia? Disregarding 9/11 and disregarding the economy, what is 
the most that we could do?''
    They came back to me and said around $6.4 billion. Now, 
that number is flexible. It could be $6.5, it could be $6.3, 
but that is a movable number. But that was the best estimate we 
could come to.
    We went to OMB with that number, and asked, you know with 
the $6.4 number, $6 billion and $400 million, and at that point 
then we started discussing the different items. I guess I have 
to accept some responsibility for the number coming out from 
OMB lower than I would have liked it, simply from the 
standpoint that maybe my arguments were not as good as they 
should have been.
    Mr. Rogers. Welcome to the crowd.
    Mr. Parker. But the fact of the matter is that when we 
presented the budget to OMB, we presented it from the 
standpoint of the maximum use of dollars that we could utilize 
to get rid of the backlog and everything else.
    Mr. Rogers. Well, how much did they cut from your request?
    Mr. Parker. Well, if you look at $6.4 billion, and you come 
down to $4.3 billion, you are looking at $2.1 billion. However, 
the $4.3 billiion is somewhat misleading, because whenever you 
remove the retirement amount, the cost for the retirees, which 
is about $115 million, and you remove the $65 million for 
security, and then some other incidentals, you come back, you 
are getting close to the $4 billion again.
    Mr. Rogers. Well, the OMB request to the committee is 
$4.026 billion, which is $460 million below last year's level, 
10 percent roughly below current levels. And your request, of 
course, is well above last year's level. So they really whacked 
you, didn't they?
    Now, they did that, I think, by saying, ``We are not going 
to have any new starts.'' Right?
    Mr. Parker. Well, there is one new start. There is one new 
start on the West Coast.
    Mr. Rogers. Who suggested that?
    Mr. Parker. Well, I mean, it was in our request, but it----
    Mr. Rogers. Is that OMB? OMB wanted to earmark some money?
    Mr. Parker. Yes.
    Mr. Rogers. I am absolutely shocked. They have been 
lambasting Congressmen up here for wanting money to do projects 
to save lives in our districts, and you mean to tell me that 
they have an earmark that they want to do? Why, Mr. Chairman, I 
am shocked.
    Mr. Callahan. I am afraid there is more than one.
    I also understand, Mr. Rogers, that a democratic Senator 
made a request of OMB to increase a project request, to earmark 
additional money for his State, and OMB granted this. Is that 
also correct, Mr. Secretary?
    Mr. Parker. Yes, sir.
    Mr. Callahan. And what other earmarks are there?
    Mr. Parker. I will refer that to the General.
    General Flowers. I am looking for the cigar. [Laughter.]
    Sir, I am not aware of any other ones. There may be.
    Mr. Callahan. Would you consider the Everglades, for 
example, an earmark, I mean the restoration of the Everglades. 
Is that--would you consider that an earmark?
    General Flowers. I know it is one of the five largest 
projects that got near optimum funding.
    Mr. Callahan. In the request?
    General Flowers. Yes, sir.
    Mr. Rogers. We all have to understand now that what OMB is 
requesting may not wind up being what we do. I know that is 
shocking. And it is particularly shocking to the kids down 
there at the OMB.
    Mr. Chairman, I just wonder why we don't have OMB up here 
to testify. I mean these people have made a legitimate request 
of the kids down there at the OMB. I don't know why we don't 
have the kids up here to answer questions, because they are 
really the ones that are hiding behind these folks here.
    Mr. Callahan. Well, it seems to me if you all want to have 
a hearing and bring OMB up here, I don't think they would 
cherish the thought of coming, but nevertheless, it suits me.
    But I think the point, if I might, that Mr. Rogers is 
making, is that the administration, through OMB, has chastised 
us because we did new starts out of respect for requests from 
our own members of the House and Senate. First of all, we 
didn't put any new starts in our bill last year when it left 
the House, but when it got to the Senate, they loaded it down. 
And so we didn't hear any hew and cry from OMB or from the 
administration or anyone else, saying, ``Don't take the 
Senate's marks.'' They couldn't say that. So we demanded that 
if the Senate was going to earmark some projects, that we were 
going to take half of that money and earmark it for our member 
request.
    So we, last year, responded to the suggestion of the 
President or OMB not to earmark. But now they have come back 
emphatically and said, ``The thing that is wrong with America 
is that the Congress is earmarking water projects, and we don't 
want that to happen any more. However, we have got some pet 
projects of our own. We want you to earmark them for us.''
    Well, they are going to have a rude awakening with that 
strategy. We are not going to respond to that. They can't come 
up and tell us not to do something, and at the same time 
request us to do something for them. So that has got to change. 
And I know that that has nothing to do with your input into 
this, but it is just a criticism of OMB, for the audacity that 
they have, to criticize us to demand that we do not earmark, 
and at the same time come in, and there are probably five 
different earmarks in this bill of projects they want. So that 
is something that we are going to have to address.
    Mr. Rogers. Mr. Chairman, I am going to send the kids down 
there at the OMB a book to read. It is called ``How to Win 
Friends and Influence People.''
    Mr. Callahan. All right. In the meantime we had better get 
down to this other end of the table.
    Mr. Rogers. Let me just quickly, if I can quickly, tie this 
together, Mr. Chairman.
    Mr. Callahan. Yes, sir.
    Mr. Rogers. Now in the budget request, they also are 
terminating many ongoing projects, are they not?
    Mr. Parker. Yes.
    Mr. Rogers. Now, what does--are there costs associated with 
ongoing projects and terminating those contracts?
    Mr. Parker. The costs on terminating those projects would 
be roughly $190 million, $194 million or something like that. 
Now that is an estimate.
    Mr. Rogers. Well, you can almost finish the projects for 
that, can't you?
    Mr. Parker. It is a large amount of money.
    Mr. Rogers. If you spent that $194 million terminating 
projects, we could finish a good portion of the ones they want 
to terminate, could we not?
    Mr. Parker. I think the total amount on the--Rob, what is 
the total amount on all the projects they are talking about 
terminating?
    General Flowers. I think the figure was $384 million to 
keep all of the projects on schedule.
    Mr. Rogers. So roughly half that amount it would cost to 
stop them, to terminate them in their tracks.
    General Flowers. Yes, sir.
    Mr. Rogers. But what about the cost sharing agreements you 
have with communities and states and cities and towns and 
people? Many of these are flood projects, I would assume?
    General Flowers. They are, sir.
    Mr. Rogers. On which people's lives depend; is that not 
correct?
    General Flowers. Right.
    Mr. Rogers. And these are the projects that the kids at the 
OMB say, ``No, you can't, and we're going to shut them down 
even though we could finish them for a little more than twice 
what it would cost to shut them down.'' Am I getting this 
straight?
    General Flowers. Yes, sir, you are.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Callahan. I would give Chairman Rogers some advice. If 
OMB hears all these remarks you are making, they are probably 
going to try to reduce some of your appropriations in 
transportation as well.
    Mr. Rogers. Make my day.
    Mr. Callahan. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman.
    Let me support Chairman Rogers. I have never had the 
opportunity to meet Mitch Daniels or the kids, and I hear so 
much about him. I would be happy to meet him, get to know who 
he is.
    Mr. Rogers. I expect you will.
    Mr. Pastor. Mr. Secretary, first of all, congratulations, 
and welcome again. You have served on this committee for a 
number of years, and I am very happy that you decided to serve 
your country in this capacity. Welcome back to Energy and 
Water, and we are here to assist.
    And I will follow the Chairman's direction and the ranking 
member's direction and leadership to see what we can do to make 
this a fair budget, since we know that you have been very 
active, or the Corps has been very active in defense and 
homeland security, and helping save lives.
    I have to tell you--and I want to tell you, General, that 
at least on my part, I want to show my appreciation publicly to 
the men and women of the Corps. I had the opportunity to go to 
New York, and it was because the Corps was there very early and 
stayed late, that many of the goals and tasks that we had in 
New York were accomplished. And so I want the thank you and the 
men and women of the Corps, because without their involvement 
and participation it would have been very difficult to deal 
with that tragedy up there. So, I want to thank you.
    Mr. Secretary, I have been sending some letters to you and 
talking to your staff, and I want to thank you for the response 
that you have given me. And lately in Arizona and some of the 
Western states, there has been some concern over the final 
nationwide permit, the regulation that was issued on January 
15th. And those regulations specifically exclude ephemeral 
waters from the definition of loss of waters of the United 
States. And as you know, in the Southwest and Southern 
California, these types of waters are prevalent, but they are 
very small, they are not connected to other surface water, and 
they very rarely carry water. And there is still great concern 
when--and I learned a new word, ``errata notice.'' I didn't 
know what the hell it was, but the errata notice, when that was 
published, it was great concern. And I guess the final register 
was published on February 13th, and it eliminated the exclusion 
of ephemeral waters from that definition.
    The people who are calling me tell me that it was to them, 
the way they see it, a policy change. They thought the Corps 
was going in one direction and they were working with the 
Corps, and then there was a policy change that it was done on a 
correction rather than a procedure that they would like to 
participate in. And so I am asking the question because I am 
asking it for them. What happened in the process that it was a 
correction, rather the process that would allow them more 
input?
    Mr. Parker. I am glad you asked the question, because we 
are explaining that a lot. In reissuing the nationwide permits, 
which we were required to do--we have to go through this 
process--out of the hundreds and hundreds of pages that make up 
the nationwide permitting process and the permits themselves, 
there were two sentences that were very poorly written. Those 
two sentences, you could read it, and people read it and got 
what they wanted to out of it. They read it the way they wanted 
to.
    We had made the decision--the policy decision--that we 
would address ephemeral waters under Swancc, and we have 
discussions going on now between EPA, between the Corps, 
between CEQ, between Department of Justice, talking about the 
Swancc ruling and how to come to a definition of Swancc. And we 
were going to address ephemeral waters there. Because these two 
sentences, and they were two separate sentences in two 
different places, because of the wording and because of the 
different interpretations of these two sentences, we felt that 
we had to go back in and correct that with the errata sheet. 
And this errata notice that we had to put out said these are 
two things that we have to correct, and we are correcting it to 
the status quo. Ephemeral waters, we are going to address that 
under Swancc. But we are going to correct it so the status quo 
is there.
    Since it had significant impact, it required us to have 
public comment on that errata sheet, for which I think the 
timing is either 60 or 90 days, on the errata sheet, on the 
change itself.
    But we are going to address the ephemeral water question 
because of the Swancc ruling, and negotiations are occurring 
now inter-agency on the Swancc ruling itself. So that's 
basically the gist of where we are.
    Mr. Pastor. The question that I am asked, and I don't have 
the answer, is that they tell me that there is an 
Administrative Procedures Act that is in place and deals with 
rule making, and the people who are affected by the errata 
notice changes feel that you did not comply with that act. And 
so I bring it up with you. Maybe you may want to respond to 
that, because I have to respond to it, and I don't want to give 
misinformation.
    Mr. Parker. Well, first of all, my legal counsel says it 
does comply, and we are following the letter of the law to get 
this thing where it needs to be. But for Swancc, the 
interagency agreement eventually will be reached on Swancc. And 
at that point, then, the ephemeral waters issue will be 
addressed.
    Mr. Pastor. And this is only because I don't know, and I am 
sure somebody is going to ask me, and again, I don't want to 
provide misinformation. Well, let me ask this question. If 
people want to give you their comments during this period, I am 
assuming that they will be allowed to do it?
    Mr. Parker. Of course, and it is on our website also. I 
mean everything is listed as part of the process.
    Mr. Pastor. But since you are doing an intergovernmental-
agreement with EPA and other agencies, is it worth the effort? 
Let me ask that question.
    Mr. Parker. Well, I think from a legal standpoint you have 
to follow through this process. The Swancc discussion, we are 
doing that because of the court ruling. It is an interesting 
thing to me that EPA looked at the Swancc ruling and made a 
determination that it actually expanded the jurisdiction over 
ephemeral waters, which I thought was just an odd reading of 
the ruling itself.
    Mr. Pastor. Yes, because expansion may adversely affect us, 
and so we are concerned.
    Mr. Parker. Well, EPA read that, in my discussion with some 
of the people from EPA they thought--but they think everything 
expands their jurisdiction.
    Mr. Pastor. Once you have an agreement with the Federal 
agencies, EPA and the other agencies that are involved, will 
there be another rule proposed, where people can comment? What 
will be the process, so I can advise?
    Mr. Parker. Legal counsel says ultimately that will occur, 
but the reason that we are going through this process right now 
is to make sure we get guidance to the districts on how they 
need to look at it. EPA has got to give guidance to their 
regions on how they should view it, so that is the reason it is 
inter-agency.
    Mr. Pastor. Yes, because I can tell you that I know that in 
one particular region that affects the West Coast, there was 
some discussion how it was going to be applied, how it was not 
going to be applied, and a concern. They would rather have the 
national policy rather than have the different districts come 
out with policies that may be supportive of each other or may 
be different from each other. So I thank you for the process 
that would give us a national policy, because we think that it 
is better that it be determined on a national basis. And I will 
tell my constituents who are concerned about this, that they 
continue to comment on the rule making process, and look 
forward to other determinations of which they can participate.
    Mr. Parker. In the interagency discussions, the ultimate 
goal is to get a policy that is nationwide and that all the 
agencies agree with that policy and they interpret the policy 
exactly the same way, so that the American public can know what 
they are dealing with wherever they are in this country.
    Mr. Pastor. And I thank you and again, I congratulate you 
and look forward to working with you.
    Mr. Parker. Thank you.
    Mr. Callahan. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Good morning, Secretary, welcome back. General Flowers, 
General Griffin, Rob Vining, thank you for all of your good 
work. Those of us who serve on this committee have always 
valued the work of the Army Corps, but after September, all of 
us value it even more.
    I am the only member who comes from the Northeast and the 
North Atlantic Division, and I would like to thank you, General 
Flowers, and all of those in your command, General Rhoades, for 
what you did in the New York, New Jersey Metropolitan Area. We 
don't need to go over how horrific it was and how catastrophic 
it was. And you have pointed out that your people, men and 
women, were on the ground from the get-go, and they saw some 
horrendous things, and they are still finding them and serving 
in ways that I am sure we don't need to have descriptions of at 
the Freshkill Landfills. You are still there on the ground. We 
are incredibly grateful.
    In our state we seem to be somewhat overshadowed by New 
York, but we lost 800 people who worked in lower Manhattan, a 
lot of people from my neck of the woods, and friends and 
neighbors of mine lost their lives. But the Army Corps didn't 
get the type of visibility that it should have perhaps. A lot 
of other Federal agencies, FEMA, obviously was in there, EPA, 
and I want to--I certainly join with all the members in here to 
reemphasize what the Chairman said. We are extremely grateful 
for the degree of professionalism, compassion that exists to 
today.
    General Flowers. Thank you.
    Mr. Frelinghuysen. And I think generally speaking, let me 
say to the Secretary, congratulations on your very on-target 
remarks about trade. I am a believer in keeping America open 
for business. And while there may be people who have, should we 
say somewhat isolationist views, we need to keep our harbors 
open. We need to be able to navigate. We need to compete in a 
global economy. Very happy to hear those remarks. I assume that 
the people behind you, men and women, are supportive of that 
type of philosophy.
    Recognizing that I represent the New York-New Jersey 
Metropolitan region, General, I support the comments you 
touched on earlier. We obviously know the economic consequences 
of not doing the right thing, continuing the type of work, the 
ongoing work that needs to be done. What is the military 
strategic importance of keeping our ports open? I mean we don't 
talk about that much, but could you expand on that very 
briefly?
    General Flowers. Yes, sir. Currently we pride ourselves on 
being able to deliver and project our force where it is needed 
and when it is needed. Key to that are two things, being able 
to move efficiently by air and also being able to move 
efficiently by sea. And the services have made investments in 
fast sea lift, and it is critical that we keep our strategic 
deployment ports open, so that when we have to project our 
power, we are able to do that through those ports.
    I would also say that the Inland Waterway system has 
provided some strategic agility as well. One of our divisions 
deployed today to Afghanistan, frequently deploys by Inland 
Waterway when it deploys for training to our joint readiness 
training center, and it represents for the division a 
tremendous savings in what it costs to ship, but that also, I 
think, demonstrates the flexibility that the waterway system 
gives you.
    Mr. Frelinghuysen. One of our national priorities outlined 
in the Federal budget is under General Rhoades's North Atlantic 
Division, which is the New York-New Jersey Metropolitan region. 
This committee has given, I think, some good direction to you. 
Can you comment or have General Rhoades perhaps comment a 
little bit about how we are progressing in terms of providing 
the proper draft so ships can get in so we can really get, not 
only serve military, but other purposes?
    General Flowers. Yes, sir. I don't know if I want to take 
the risk to have Steve Rhoades get the microphone, but----
    Mr. Frelinghuysen. I like the idea. Thank you.
    General Rhoades. He is never quite sure.
    Mr. Frelinghuysen. We are interested obviously in getting 
the job done. We are also interested in saving money, so if 
there are things that we are doing in our area that can be 
duplicated elsewhere, would you talk about the impact of that?
    General Rhoades. Yes, sir. As one of the national projects, 
I am happy to report that since we have met last time, there 
has been a substantial amount of progress made. My own view is 
that the Federal team is working better than it probably ever 
has on this issue, overcoming the legitimate hurdles that face 
the deepening of this port.
    On the Kill Van Kull, sir, we have three--we have completed 
three construction projects, and three additional projects are 
about to be awarded.
    In the Arthur Kill, we have completed the limited re-
evaluation report, the environmental assessment, and we have 
negotiated a project cooperation agreement with a nonfederal 
partner. We expect to execute that agreement in April of 2002, 
so that is right around the corner.
    And the Port of Jersey, sir, we have negotiated a project, 
a cooperation agreement, and likewise, we plan to executive 
that agreement in April of 2002.
    The New York-New Jersey Port Design effort, a design 
agreement was negotiated with a nonfederal sponsor, the Port 
Authority, and executed in January of 2001. The engineering and 
design effort is under way, and we are working with the 
environmental agencies and the states to complete that record 
of decision, which will be a major milestone which we expect to 
get done this summer.
    Mr. Frelinghuysen. Sounds good. Go for it.
    General Rhoades. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Callahan. Mrs. Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. I, too, would 
like to welcome the Secretary. I have had the privilege of 
working with him as a colleague, and I would also like to 
welcome General Davis, who is new in the South Pacific 
Division.
    I would also like to thank Chairman Callahan for coming to 
California last year and touring the ports of Long Beach and 
Los Angeles, which comprise the third-largest port in the 
world, and it is still growing. In the year 2000, the L.A. 
Harbor experienced a 27-percent increase in container traffic, 
making it the busiest container port in the United States, and 
the volume is expected to double over the next 10 years.
    Last year, the committee included funds for new 
construction that permits the dredging of the main navigation 
channel for the port of Los Angeles. This, of course, is 
desperately needed in order to accommodate the more modern and 
the larger size containerships that are now being used.
    Can you give the committee the status of this project and 
what you will be doing with the funds that were provided in 
fiscal year 2002, as well as what your capability would be for 
fiscal year 2003?
    Mr. Parker. First, let me just mention, and I am going to 
let the General answer that question for specifics. I had the 
privilege of going out to Los Angeles and touring the ports 
there in Los Angeles and Long Beach, and I have to tell you I 
was extremely impressed with the plans that they have in place, 
and not only the work that they have done with the ports, but 
also this has been totally intermodal. All of these different 
forms of transportation are coming together there in a way that 
shows a tremendous amount of cooperation.
    It is interesting that Long Beach and L.A. work so closely 
together on these things because they are such fierce 
competitors, as far as stealing each other's tenants and 
everything else, but they work extremely well in knowing that 
the future of the area depends on them working together and 
also working with other interested stakeholders that are not at 
the port itself and go farther up the watershed. They have a 
real broad view of a watershed approach on how things should be 
done. I think that is one of the reasons they have been so 
successful.
    But they are doing an excellent job out there, and I was 
very much impressed with how they were doing it, and the 
cooperation there. As far as the specific numbers, I will let 
the general answer that.
    General Flowers. I think I am going to call on the South 
Pacific Division engineer to answer that question.
    Larry.
    General Davis. Good morning, ma'am.
    Ms. Roybal-Allard. Good morning.
    General Davis. For this year, we have $4.5 million in the 
budget in 2002. That will complete the plans and specifications 
for the deepening. We have a capability to do $20 million worth 
of construction next year. However, right now we have nothing 
in the budget.
    Ms. Roybal-Allard. Okay. Actually, that leads to my next 
question. Because, given the earlier comments about the vital 
role that our ports play in the economic stability of our 
Nation and also, as the General added, to our national 
security, I find it hard to understand why your budget contains 
no funds for this particular project, and I would like an 
explanation of that.
    Mr. Parker. You know, we are in the beginning of this 
process, and as I said before, there have been some hard 
decisions made, and we know, the Administration knows, the 
President knows that the process is not something which ends at 
this point. It is just the beginning. It is not a sprint. It is 
a long-distance race through this process, and in the final 
analysis, it will be all of us sitting down, members of the 
Administration, the President, and the House and the Senate, 
with this Committee playing a vital role in coming to the final 
conclusion, as far as where we are going to be. We know full 
well that the numbers that have been presented by OMB are not 
the numbers that are going to be in the final bill.
    That is pretty much all I can tell you about it.
    Ms. Roybal-Allard. So you are hoping that will not stay at 
zero budget for----
    Mr. Parker. No, I guarantee you it will not stay at zero.
    Ms. Roybal-Allard. The Harbor South Bay project is the type 
of project that we are relying on more and more in Southern 
California to effectively use our supply of water. And in Los 
Angeles County, 30 percent of that water is recycled, and 
municipalities use recycled water for parks, for golf courses, 
and businesses really like to use it for their industries 
because it is also a reliable source of water.
    Again, I believe that you also toured----
    Mr. Parker. I did.
    Ms. Roybal-Allard [continuing]. Went on a tour of it when 
you were in L.A. Can you briefly describe this project to the 
Committee and the need you and the project sponsors are trying 
to address.
    Mr. Parker. It is an interesting project in that they take 
water, and they turn around and recycle it. They have customers 
there who are in line waiting to buy it. LAX airport, they've 
got I think it is a large company across the road that uses a 
tremendous amount of it. Their goal is to increase--and they 
keep coming up with new technologies--their goal is to increase 
to the point where I think they are doing 45 percent of all of 
the water in the total valley, in the total watershed there. 
Right now they are at 25 percent.
    So it is a fascinating thing to tour the facility and to 
see what they are doing and how they are accomplishing that 
because it takes water that is utilized, but then it reuses it 
again, and it can be reused after that, also. So, I mean, it is 
a fascinating thing to see, and it is something that we are 
going to be using around the country because water--we are 
having a, I say ``we'' there is going to be a national 
discussion on water issues in September of this year, and for 
30 years we have not had that national discussion, as far as 
talking about water and the priority that water has in our 
lives and the value of water.
    It has been said that over the last 100 years we have 
fought wars over energy. Over the next 100 years, we will fight 
it over water. I agree with that. I think that we all see, 
because of climate changes, a lot of different things, because 
of aquifers that are being lowered, that we have got to address 
this early to put off problems that are going to eventually hit 
everybody.
    That meeting is going to occur in September, and I think 
that you will see a lot of these interested parties, all of the 
parties in this country that are interested in water, you will 
see them coming together--business groups, agriculture, 
environmentalists, they will all come together. One of the 
things that they will talk about, I think, at this meeting is 
going to be recycling of water and how you use it in a more 
efficient manner.
    Ms. Roybal-Allard. By your comments, that tells me that you 
do understand the importance of recycling, which is why, again, 
I am surprised as to why there is no inclusion of this Harbor 
South Bay in your budget. Is this because it will come later?
    Mr. Parker. Well, in working with the committee, and 
working with the Chairman and the Ranking Member, I think that 
in the final analysis, we will have the issues that you are 
talking about addressed.
    Mr. Callahan. You left out the primary reason. It is 
because she is a member of this subcommittee is the primary 
reason it will be put back in there.
    Ms. Roybal-Allard. Thank you, Mr. Chairman. Do I have time 
for one more or do you want me to go the second round?
    Mr. Callahan. I am sorry. We are going to come back, 
though.
    Ms. Roybal-Allard. You will come back?
    Mr. Callahan. Yes.
    Ms. Roybal-Allard. Okay. Fine.
    Mr. Callahan. Mr. Wicker.
    Mr. Wicker. Thank you, very much.
    Mr. Secretary, it is really good to see you sitting where 
you are sitting, as well as the other members of the panel and 
the excellent professionals that are sitting in the two rows 
behind the panel. I think every member of this subcommittee 
appreciates the work that the Corps of Engineers does to 
protect the lives, and safety, and property, and livelihood of 
Americans. I do not disagree with a single thing that has been 
said so far today.
    There is justifiable gentle criticism of the Administration 
for unrealistic budgeting, but I do think the Administration 
has to be commended for putting someone like you in this 
position because, Mr. Secretary, you have been on this side of 
the panel. You know what is nonsense and what is real, and also 
I have every confidence in our chairman, and in Mr. Visclosky 
and the other members of this Subcommittee. We are going to 
work this out, and we are going to come out with a product that 
Americans can feel confident about.
    Lest there is someone in the room who thinks that we all 
sound like a bunch of big spenders and pork-barrel advocates 
today, those would be the uninitiated. I have to echo what 
Chairman Callahan has said. If there is a deficit this year in 
our budget, it will not be because of this Subcommittee. We are 
going to be efficient with the taxpayers' money, but we are 
going to meet the needs because they are out there.
    The chairman mentioned pet projects when he was talking 
about earmarks, and I know he was being facetious, but I also 
know that you recognize that some of the things that might be 
called pet projects cannot be sustained with the budget that 
has been submitted. Projects such as the construction and 
maintenance on the Mississippi River and Tributaries Project, 
we know that that is going to have to be realistically funded.
    I want to personally thank you for what you have done as a 
member of this Congress for the DEC program, the Demonstration 
Erosion Control, for those of you who are not familiar with it. 
I know, Mr. Secretary, that you have been there in the small 
towns that see the flood water creeping up each year, and you 
know that this is a program that is going to save a town from 
extinction. I think you realize that we are going to have to 
put that money back in for the DEC.
    Let me just ask you, with regard to security with the 
Mississippi River and Tributaries project, Mrs. Emerson was 
getting around to this, but I understand that the supplemental 
security funding will not give us any additional funding for 
security on the Mississippi River and Tributaries project. Now 
the needs are going to be there. The funds will have to be 
spent for security of our dams, and our water supplies, and 
things of that nature in the Mississippi Valley, but that will 
have to come out of appropriated project funds.
    I spoke with General Arnold about this yesterday. Is this 
something that the administration intended? Is it something 
that was just accidental because of a budget quirk? I 
appreciate your thoughts on that, and any other members of the 
panel.
    Mr. Parker. Let me first say that the Corps will not let 
any facility not be protected. We will make sure that it is 
protected. But as far as answering your specific question, let 
me refer that to the General.
    General Flowers. What we did following 9/11 was go through 
a very systematic, and we are going through a very systematic 
reinspection of all of our critical infrastructure. What we 
have done initially was responded through the Department of the 
Army on what it would take to protect that infrastructure and 
asked for that money.
    Right now we are paying that bill out of hide, and MR&T 
funds are being used to pay for infrastructure security on the 
lower Mississippi River. What we are going to do is fight for 
reimbursement of the money so that it does not divert from O&M 
and other necessary and vital work on the lower Miss.
    Mr. Wicker. I appreciate that assurance, and I look forward 
to working with you on that.
    Let me just make one additional quick point in the time 
that is remaining, and that is with regard to the effect that 
our work on the Mississippi River and Tributaries is having on 
the safety of our region. Mr. Edwards mentioned a very 
devastating and expensive hurricane. We have been lucky, in the 
Mississippi River Valley that we have not had a real major 
event, but we know that it will eventually come.
    I would just say to the members of the subcommittee and to 
anyone reading the record that we are going to have to pay 
attention to the possibility that another flood will be coming 
along, and we are going to have to be ready for it. I look 
forward to working with you and everybody else up and down the 
Mississippi River because it will be potentially serious when 
it comes.
    So thank you.
    Mr. Callahan. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Secretary, Steve Largent used to tell us when he was 
here that in the NFL sometimes rather than saying anything, 
they would just do this.
    [Mr. Wamp moving finger in circular motion.]
    Mr. Wamp. What that means is what goes around comes around. 
I am real tempted to try to bring some anxiety to you like you 
did so many witnesses here on this panel. [Laughter.]
    But it is almost like a love fest. There is a lot of people 
that testify here that are real glad you are gone, and I am 
sure they are going to be frustrated that we do not treat you 
the same way that you treated them. But I agree with Mr. 
Wicker, it is an excellent choice.
    I do not think there has ever been a time where the Corps 
is going to be more important than post-September the 11th to 
the future of the free world, and the strength of our country. 
And anybody that refers to this line of work and this 
responsibility as pork needs to remember the second 
responsibility behind national security of the Federal 
Government is infrastructure. We have huge infrastructure 
needs. I do appreciate your recommitment to efficiency and 
effectiveness in the last year that we have seen. The chairman 
was right in his opening statement, and I commend that.
    I have one issue, and it will not surprise anybody in this 
room that I raise it because we are now close to a priority we 
have been working on for 5 years called the Chickamauga Lock 
replacement in Chattanooga. But it affects all of the Eastern 
United States. It will follow the excellent model Chairman 
Rogers led this committee through, and the country through, 
with the Kentucky Lock replacement. It is smaller, in terms of 
the volume, but it is very, very critical.
    The Corps has done an excellent job with the Chief's 
report. It is on the street, the draft is out there. We should 
have that report finalized and to the subcommittee for 
inclusion in WRDA 2002 this summer. And I want to raise the 
issue, ask you to help me assure the people of the region in 
the South that this administration is committed to the 
authorization first, and then this committee will have the 
heavy lifting annually for 7 years to replace a lock that the 
Corps clearly says, through the chief's report, needs 
replacement because of concrete growth. We have patched it up 
as best we can for the last several years, but we are running 
out of time.
    And we are now at a window where we have to go through with 
the authorization, with WRDA, and then the annual 
appropriations on what could be a $300 million, 7-year 
replacement project, and openly invite you to come back to the 
region. I know you have been there. You have got great friends 
in the region. Maybe this summer, when it warms up a little, 
you can come down and see exactly what the needs are, and we 
will roll out the red carpet for you, Mr. Secretary.
    General Flowers, I appreciate your leadership as well, sir.
    Mr. Parker. First of all, it surprised me that you brought 
up Chickamauga because I have never have had a conversation 
with you when you did not bring up Chickamauga. But the fact of 
the matter is I am coming down. We are working some things out 
now for me to come down there, and I will be also speaking at 
the Cleveland Rotary Club. So we will work that out before too 
much longer, but I am looking forward to coming down and 
looking forward to working with you.
    Mr. Wamp. Thank you, Mr. Chairman.
    Any commentary, General, on the status report on 
authorization?
    Mr. Vining. Sir, as you know, the chief's report is out. We 
are on schedule to have that available for consideration for 
WRDA. In anticipation of that authority, we have a capability 
on this project, so we would be ready to move forward.
    Mr. Wamp. Thank you all.
    Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Doolittle.
    Mr. Doolittle. Thank you, Mr. Chairman.
    Mr. Secretary and gentlemen, welcome.
    I was intrigued to read in the testimony of the Secretary 
that the Administration is proposing to shift the full cost of 
Federal retirees to the Agency programs instead of the Office 
of Personnel Management. Why is the administration proposing to 
do that, and what is the rationale behind their thinking?
    Mr. Vining. The understanding we have, sir, is that this is 
a Governmentwide initiative. In essence, it is to place the 
responsibility for the retirees on the agencies that the people 
worked for and retired. It is something that we are absorbing, 
as all agencies must, and we are working through that as well.
    It was certainly not something that we recommended, but we 
will implement it, if that is what ultimately comes out as the 
responsibility.
    Mr. Doolittle. This, in effect, amounts to basically a 
budget cut then, right? Because it comes out of your existing 
budget.
    Mr. Vining. The budget amount that we received was plused-
up by that amount, but if you take that amount out, that is 
what, as Mr. Parker said, you start to get back to that $4 
billion level, as the money or the funds that are in the budget 
consistent with last year's program level.
    Mr. Doolittle. Is this the first time for the Federal 
Government that they have taken this approach? I mean, how long 
have we had the policy of doing it through OPM?
    Mr. Vining. As far as I am aware, this is the first time. 
Certainly, in my career, it is the first time, sir.
    Mr. Doolittle. As you anticipate what the effect of this 
may be, as we play this out into the future, what would be the 
likely consequence?
    Mr. Vining. Well, our understanding is that, first of all, 
legislation would be required in order to implement this, and 
the consequences of this would be that we would have to 
incorporate it into our budget submittals each and every year. 
So it would certainly impact the ceilings that are available to 
fund projects.
    Mr. Doolittle. I realize I am just thinking out loud here. 
I wonder which committee that would go through to change it 
over to the agencies. Is that the Governmental Reform 
Committee, would you think?
    Mr. Vining. Probably.
    Mr. Doolittle. Thank you. I also was intrigued by the 
proposal to shift the way projects, hydroelectric power 
projects, are operated and maintained. I guess they are using 
the Bonneville Power Administration as a model, that is a 
situation, is it not, where they have a revolving fund to 
operate and maintain those projects?
    Mr. Parker. I think it is important to understand that 
these power marketing authorities are already paying this 
amount.
    Mr. Doolittle. Right.
    Mr. Parker. They pay it at the end. And because of the 
maintenance backlog that we have, in essence, what we are doing 
is funding these power marketing authorities with maintenance 
dollars that we could use now. What we are trying to do is 
utilize our money as efficiently as possible and be able, using 
Bonneville as an example, where the power marketing authorities 
pay us up front for the maintenance. That way we can take it, 
take those dollars, and spend it on maintenance that we need 
out there. They are going to pay it one way or the other, 
sooner or later. We are just talking about them paying it 
sooner, so that we can utilize those dollars now to use them 
more efficiently.
    Mr. Doolittle. If I understand how this works correctly, 
right now it depends upon--other than Bonneville, and other 
than certain specific projects, like I think Hoover Dam has a 
special arrangement where they have a revolving fund to 
maintain that, and there may be a handful of others. That was 
the one, big exception that I remember.
    The rest are dependent upon annual appropriations, are they 
not, in order to do the operation and maintenance? We have been 
very poor, I think, in providing that. That, I guess, has 
accounted for this figure I see in your remarks, Mr. Secretary, 
that the Corps hydropower facilities are twice as likely to 
experience unplanned outages as private-sector facilities.
    The trade-off, as I understand it, is that when you go to 
the revolving fund, you do lose a certain amount of 
accountability and oversight because then those funds are just 
available, and they can spend them as they see fit. That may 
just be a price we have to pay in order to improve the 
reliability, which I strongly support our doing.
    The figures I saw in your remarks indicated that Corps 
facilities experience unplanned outages about 3.7 percent of 
the time compared to an industry average of 2.3 percent. I just 
wondered, since we are going to model after Bonneville, what 
would be the figures for their facilities, just so we could 
compare them to what, say, the industry average is.
    General Griffin. We will have to answer that for the 
record.
    [The information follows:]

                      HYDROPOWER FUNDING PROPOSAL

    In the three years since the direct funding agreement took 
effect, Bonneville Power Administration's system-wide 
reliability has improved. There has been a trend toward 
increased plant availability and the forced outage rate has 
decreased. The force outage rate at Corps facilities has 
dropped from 5.48 percent to 3.75 percent over the period.

    Mr. Doolittle. Thank you very much.
    Mr. Parker. Thank you.
    Mr. Callahan. Mr. Secretary, last year we had some 
controversy, and naturally that was before you came on board, 
about the change in the cost-sharing formula for the periodic 
renourishment phase of shore protection projects, and as you 
know, Congress rejected that proposal. I know that the budget 
indicates that the Administration, and when I say 
``Administration,'' I guess I am referring to OMB, has concern 
with inadequate local cost-sharing for shore protection 
projects. Do you think that there is a similar proposal for 
changing the cost-sharing formula in the works this year? Is 
the Corps advocating that or is OMB or someone advocating that 
we go back to the same battle that we fought last year?
    Mr. Parker. OMB has let us know that they have not 
formulated a position, as of yet, so it is my understanding we 
are still waiting on that.
    I have to tell you, on changing any of the cost sharing, it 
is my view that we need to be very careful on that this year, 
especially going into the deficit spending. I think we have to 
look at it, and I know that this committee will work its will. 
The House and the Senate will work its will, and the committees 
of jurisdiction, as far as addressing these questions, but I 
want to make sure, since we are going into deficit spending, I 
want to make sure that we do not create another level of 
burden, cost burden, to the Federal Government with the limited 
dollars that we have got to use. We have got to use them more 
efficiently, but that is really a decision that you, as a 
committee, have got to make.
    Mr. Callahan. We have already made that decision. We made 
that decision last year, and we instructed you not to change 
the formula. So I would not advocate that you present anything 
to this Congress saying that we disagree with what you did last 
year, and we want to move in another direction. So I would 
strongly suggest to you all that you not even bring such a 
proposal to this Congress.
    Mr. Vining. Mr. Chairman, if I could on that line.
    Mr. Callahan. Sure.
    Mr. Vining. Just for clarity, the shoreline protection 
monies in our annual budget then are consistent with current 
law and would not be anticipatory of any changes.
    Mr. Parker. No.
    Mr. Callahan. They do not anticipate any changes.
    It is odd that there are no funds requested for shore-
protection projects in the State of Florida, yet that was a 
high priority last year because of Congressman Clay Shaw's 
insistence that we give them some immediate assistance on the 
Miami Beach shoreline. Why is there nothing in here for 
Florida?
    General Flowers. Sir, that falls under the no new starts--
no new contracts, sorry.
    Mr. Callahan. What about the contracts that were issued 
this year? Will it be sufficient to fulfill the needs or are 
they going to replenish half of the beach or a third of it or 
what? Where are we?
    General Flowers. About 80 percent of the contracts are 
funded. The other 20 percent are going to fall into that 
category that we talked about earlier in termination.
    Mr. Callahan. The continuation of the existing contract to 
finish the project would be a lot simpler and less costly than 
to start a new project, with new engineering, with new contract 
lettings. Are we not actually losing money if we do not finish 
the project and say come back next year or 2 years from now and 
start all over again? Would we not be losing money?
    Mr. Parker. Yes, sir.
    Mr. Callahan. When I refer to the Administration, I hope it 
shows somewhere in this record, when everyone refers to the 
Administration, we are talking about OMB. You are the 
Administration, and the President is the Administration, but we 
are talking why would OMB be so foolish as to take Social 
Security money and cancel a contract because of the whim of 
some individual within the Office of OMB? Why would we cancel a 
contract? The cancellation in this case would cost more than 
would be finishing the project.
    Anybody?
    Mr. Parker. I thought that was a rhetorical question.
    Mr. Callahan. It was. But I just cannot comprehend. You 
know, I can understand their disdain for the Corps or their 
love of whatever they love, but I cannot understand totally 
ridiculous suggestions such as that. So, before you cancel that 
last 20 percent of these contracts, Mr. Secretary, I would like 
for you to know that we are going to force you to do it anyway 
before this process ends this year, and I would encourage you 
to find a ways and means to continue that project and not to 
plan on any cancellation of any project that is going to cost 
money to stop, and especially in Florida.
    We, in Alabama, too, have great interest in beach 
renourishment, and we are undergoing part of that pilot 
program, and we do not want any change in the direction. I know 
Mr. Frelinghuysen in New Jersey, has great interest, as do 
Texas, and Indiana, Ohio. So the Congress is very interested in 
this program. I think, in most cases, it saves you money 
anyway.
    In the case of Dolphin Island, Alabama, or Gulf Shores, the 
question is whether or not we are going to take this clean, 
white sand 25 miles out in the Gulf and dump it or whether we 
are going to dump it right on the shore almost adjacent to the 
channel, when the environmental community supports it, and you 
are performing a service and replenishing beaches at a smaller 
cost than it would cost you to dump it in the ocean.
    So this is a project that I am personally interested in, 
that every member of this committee is interested. The entire 
Congress voted on the formula last year. For example, at one 
point, one of the gentlemen from Colorado, and I do not know of 
any beach renourishment programs that he might have, tried to 
extract all of it, only to fail miserably.
    So the Congress has overwhelmingly voiced its opinion on 
this type of project, and I think that these projects are well 
deserved, well merited, and we would encourage you not to 
accept, or at least if you are directed by anybody to begin a 
new direction, to inform them that they are going to run into a 
big barrier in the Congress of the United States.
    Mr. Parker. Mr. Chairman, we are working on WRDA right now 
and coming with a proposal to the Congress. One of the things 
that we need that we are working on now is trying to provide 
the tools to our districts to allow them to do things in a more 
cost-effective way. A lot of times they wind up taking the 
blame for things for which they do not have the tools necessary 
to be able to make common-sense decisions as far as what needs 
to be done.
    I think that is something that needs to be addressed so we 
can do things in a more cost-efficient manner, in a more 
common-sense way, and basically get a bigger bang for the buck 
for the taxpayers of this country and do things in such a way 
that benefits the American public and the environment, and at 
the same time, we do not have to jump through hoops to get it 
done. And those are some of the things for which we will be 
coming to the Committee, and asking for some of those tools for 
the local districts.
    Mr. Callahan. I do not know what the wishes of the 
committee are. I guess that is a vote we have on the floor, and 
I do not know what your schedules are, but I guess we had 
better go vote and then come back.
    You can keep going, if you would like, but I will go ahead 
and vote, and then when they are finished, we will just stand 
in recess. You are welcome to use my office, if you need to use 
the phone or rest room or something during this temporary 
break.
    We will be right back.
    Mrs. Roybal, are you going to go ahead?
    Ms. Roybal-Allard. Yes, I will go ahead and ask my 
questions.
    I wanted to follow up on the Harbor South Bay Recycling 
project because I understand that the Los Angeles district 
would like to incorporate two additional segments into the 
Harbor South Bay project, the West Basin and Central Basin 
Connector project, and the Montebello Loop, both of which are 
important to my congressional district.
    Do you agree with the assessment that adding these two 
elements are essential to the success of the project and can be 
added with no additional authorization?
    Mr. Parker. Yes. From my understanding, it is, and I would 
suggest that other members of this Committee who have never 
seen this project be invited out there to see it. Because once 
you see it, it makes a real impression on you, as far as how 
far you can go with this type of project.
    Ms. Roybal-Allard. Thank you.
    The Los Angeles County Drainage Area project, has provided 
quite a bit of relief from potential flooding, and FEMA 
recently approved the revised flood maps that are going to 
result in significant reductions in flood insurance premiums 
for thousands of Angelenos. When the L.A. River is dry, which 
is quite often, the project resembles a large piece of 
concrete, so that greenways or parks, those kinds of things, 
are very important to those who live in the surrounding 
neighborhood.
    What has the Corps done on environmental restoration along 
the Los Angeles River?
    Mr. Parker. I had the privilege of giving the dedication 
speech for the completion of the project out there, and I have 
to tell you I was really fascinated because it came in, I think 
it was, how much under budget, $150 million?
    General Davis. That is right.
    Mr. Parker. $150 million under budget, and it was because 
of some innovative engineering that the Corps did by putting on 
some buttresses, abutments on bridges, and kept us from having 
to go in and raise these bridges.
    They have spent a tremendous amount of money on these 
greenways along the corridor there, and, in fact, where we had 
the dedication ceremony, they had a park beside it that the 
Corps had put together. I do not know the exact amount of money 
that is being spent. Perhaps, General, you could tell us.
    I did not follow the chain of command.
    General Davis. Yes, ma'am. We have ongoing right now in the 
Los Angeles district a Los Angeles Water Course Improvement 
Study, which is specifically looking at some environmental 
restoration possibilities along the Los Angeles River.
    The study is funded for this year. We have about $400,000 
of capability for 2003 that is not in the budget right now that 
would be used to continue looking at the options to provide 
environmental enhancements along that concrete river.
    Ms. Roybal-Allard. Are there other locations, particularly 
in the vicinity of the cornfields, where there might be some 
possibilities for restoration?
    General Davis. Yes, ma'am. Based on some earlier inquiries, 
we have taken a look at the area where the cornfields, the 
cornfields part of the river. We think there is potential for 
some work there as well. We have the existing authority under 
our LACDA authorization to do those studies. We probably need 
about $100,000 in 2003 to undertake that.
    Ms. Roybal-Allard. Thank you very much.
    General Davis. Yes, ma'am.
    Ms. Roybal-Allard. The committee will stand in recess.
    [Recess.]
    Mr. Callahan. Mr. Secretary, we will reconvene now.
    We have already touched, at least Congressman Rogers did, 
on the Administration's proposals with respect to the backlog 
and the cancellation of contracts and the cost of doing that. 
If I understand it correctly, what they are saying is there 
will be no new construction starts, which we have already 
discussed, except what they want, and a significant reduction 
in the funding for studies that have the potential to lead to 
new construction starts.
    So they are saying not only, as I understand it, will there 
be no new starts, they are asking you to stop the studies that 
could ultimately lead to new starts. I just wonder about the 
wisdom of that. Do you all know what the wisdom of that is if 
they say no more new studies for fear that there might be a new 
start? Are they advocating no new studies and that you cancel 
studies that are underway now?
    Mr. Parker. I can only tell you what I think. I think that 
if you create a glide slope, where you are moving down with no 
new studies and no new starts, what happens is you effectively 
become a Bureau of Reclamation, which is a maintenance 
organization, and you no longer have new starts, I mean, if 
that continued out into the future.
    Mr. Callahan. In your discussions with OMB, and they 
advocated no new starts last year and they are advocating that 
again this year, how long did they indicate to you that this 
should go on? Is this forever? Does this mean the abolition of 
the Corps? Is that their mission? If we are never going to have 
any new starts----
    Mr. Parker. I think the way it was said to us is that after 
you get the backlog down, then we will consider possibly adding 
some new starts.
    Mr. Callahan. At the current levels of appropriation, how 
long would it take you to catch up to backlog?
    Mr. Parker. We have a total of $44 billion of backlog.
    General Flowers. That's about 10 years, sir.
    Mr. Callahan. Ten years. Well, the backlog, General, does 
not include the O&M, so that is 10 total years of 
appropriations.
    General Flowers. Yes, sir.
    Mr. Callahan. So would you not say that we would be looking 
at close to 30 or 40 years before any new starts? Would that 
not be a more accurate----
    Mr. Parker. The Corps has provided me with some numbers. 
They figured it would be 22 years.
    Mr. Callahan. Twenty-two years----
    Mr. Parker. Or more.
    Mr. Callahan. So they are advocating that we not do 
anything to improve our navigation needs, our environmental 
needs, our water protection needs for the next 22 years; is 
that really what you think they are saying?
    General Flowers. That would probably be the net effect, 
sir.
    Mr. Callahan. That seems to be the direction they are 
taking. And you have already mentioned what the total backlog 
already is, and they do not really address that either. They 
say leave the backlog at $44 billion and do not do any new 
starts. That is what I am reading into this. I do not know what 
the backlog would--what we would accomplish in the year 2003? 
We would not accomplish even a billion dollars towards the 
backlog. We are talking about ongoing projects which are not 
considered part of the backlog.
    I just cannot fathom that OMB would come up with a proposal 
that says that we are not going to have any new starts, either 
from an environmental assessment viewpoint, or for actual 
construction. And in some cases, unknown factors come up, and 
we have to create a new start because of a problem that exists 
this year that did not exist last year. So we are talking about 
emergency situations. They are saying no new starts for 
emergency situations, no new starts for congressional requests. 
No new starts for anything for the next 22 years is something I 
cannot quite grasp their rationale on, even OMB.
    All right. We have had a discussion on the shore 
protection.
    Pete, do you have other questions?
    Mr. Visclosky. Mr. Chairman, I do.
    The first point I would make is this. We had several 
interchanges, Mr. Secretary, with Chairman Callahan, as well as 
Mr. Rogers, and the issue of members of Congress exercising 
independent judgment as to the needs of their regions, States 
and districts came up. But I would also point out, because the 
Chairman has several times publicly referenced communications 
he and I have had with Mr. Daniels at OMB, that the Chairman, 
as he pointed out in his opening remarks, has suggested that we 
would want to act in a fiscally responsible fashion, that while 
we would maintain our prerogative to exercise independent 
judgment, if a realistic budget had been sent up, we would be 
happy to exercise that judgment within the parameters given. 
Obviously, that did not happen, and I would not want to further 
belabor the point, but I would make that observation that the 
Chairman made that suggestion.
    I also want to, because often I am in communications, 
General Flowers, in particular, and General Hawkins, with the 
Corps because of an issue or question or problem that arises, 
take this public opportunity to thank you and to congratulate 
you, General Flowers and General Hawkins. Because one of my 
concerns in the past is I, in my heart, believe that all of you 
here with the Corps are doing God's work to protect the lives 
of our citizens, to improve our economic opportunities, to 
secure our national defense, and you do not get enough credit.
    Clearly, there is a fine line, where you have been accused 
in the past of trying to find work to do, but also point out, 
in an affirmative fashion, the value of some of the projects 
that you have undertaken. I do think, in a responsible, 
positive fashion, you have done that. I think that is good for 
the country. I think it is good for the Corps that people know, 
in an environmentally sound fashion, after due diligence and 
due study, you are undertaking programs that will improve our 
economy and will improve our security. That is not something to 
be ashamed of. That is not something to hide. And to the extent 
that in appropriate forums you can make that known, I do think 
it is helpful to all of us here.
    For all of my complaints and other's complaints about the 
budget, I would, on a positive note, recognize that, for 
regulatory programs, there is a request for $151 million. 
Subtracting out the $7 million for retirement, that figure is 
$144 million, which is a significant increase over the $127 
million--from this year's budget.
    Mr. Secretary, in particular, I would thank you for 
fighting for that figure because I do think, in fairness to the 
business community, if we are going to have a regulatory 
regime, we ought to make sure that the funds are provided to 
the Corps to make sure that it is expeditiously followed. So I 
do appreciate and recognize today that that figure is included.
    It would further be my understanding, again, after having 
not been real happy with my Hoosier colleague down there, that 
that was also the figure that was submitted to OMB. So I would 
note that as well.
    Mr. Parker. We made the argument on that, by the way, and a 
very strong argument, that in order for us to be efficient in 
what we were doing, and not only from the standpoint of the 
regulatory side, but also the follow-up side, which the Corps 
is putting a tremendous amount of time on to make sure that 
when mitigation is required, for instance, mitigation actually 
occurs, and it is not just out there and not being looked at, 
that we make sure that we are doing all of the things so that 
Congress can be assured that when we say something, that they 
can depend on that. That is very important to us. It is very 
important for the future of the Corps.
    I think it is important for people to realize that of all 
of the agencies that deal with the environment, there is only 
one agency that is mandated to look at all of these different 
factors, and the Corps is mandated to look at everything, from 
the economic side, to the agriculture side, the environmental 
side, to the Native American side, the Indian Nations, to look 
at the sociological side, the archaeological side. I mean, they 
look at everything, and they are mandated to do that.
    A lot of these other Federal agencies are very myopic when 
they look at something, and so they have the luxury of just 
looking at one thing under a small lens and never moving from 
it. The Corps is charged with the responsibility, and it is the 
one agency--to keep everything moving, make the economy go, and 
protect the environment and do all of the things necessary to 
make these projects work within communities, and people do not 
give the Corps enough credit for that.
    Mr. Visclosky. Those were some of my remarks earlier. We 
have a project in my district that has commercial purposes and 
environmental purposes. We have a nearby RCRA site. It is not 
without controversy, but there are benefits to doing that 
program, and people ought to understand that.
    I mentioned in my opening remarks Federal agencies are 
being rated for performances and that there is a performance 
plan being prepared for the Corps. Mr. Secretary, are you 
preparing that or is that an OMB initiative, if I can ask?
    Mr. Parker. It is my understanding that there was one that 
was prepared earlier. They were looking at it pre-9/11. It was 
submitted to the Corps, and we have not gotten it back yet. 
What did I say, the Corps? The OMB, and we have not gotten that 
back.
    We are now looking at doing one post-9/11 with all of the 
things. They are working on that now, and when we have that 
together, then we will submit that.
    Mr. Visclosky. So you are submitting a proposal to OMB.
    Mr. Parker. No, we are not going to submit this one to OMB. 
We do not have to submit it to OMB. They told me that when they 
submitted the last one to OMB, it never came out. I said, 
``Well, do you have to submit it to them?''
    And they said, ``No.''
    I said, ``Well, it will not go this time.'' So they will 
throw a fit about that.
    Mr. Visclosky. So the performance plan would be an internal 
document for your own utilization. It would not be connected 
with the performance grades that were given out by OMB on the 
budget.
    Mr. Parker. No. That is a thing that they are doing 
themselves; is that correct?
    Mr. Vining. Yes, sir.
    Mr. Visclosky. The last question I would have then is you 
do have the $65 million request for counterterrorism, and again 
there has been some discussion. It would be my assumption that 
that, in the end, once you have made an assessment of all of 
your needs, is probably going to be inadequate. And so that 
conversation would have to continue, as far as any potential 
supplemental that might come down?
    Mr. Parker. Let me have the General respond to that.
    General Flowers. Yes, sir. That is accurate. The $65 
million was our best estimate, post-9/11, of what it would take 
to provide additional security at some of our critical 
infrastructure. We will have a much more accurate assessment in 
April when we complete the current assessments that are going 
on across the country.
    Mr. Visclosky. Gentlemen, thank you very much. Mike, I do 
wish you every best----
    Mr. Parker. Thank you.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Callahan. Mr. Frelinghuysen.
    Mr. Frelinghuysen. I have a number of questions for the 
record. Just one comment. Most of us are aware of the non-
Federal sponsors. We are aware of the issue that you partner 
with a lot of local Governments. I assume, because so much was 
done as a result of the crisis we had in September that we have 
learned a hell of a lot, in plain English, that when there is a 
real crisis, there is an emergency, a lot of things can be 
expedited.
    I have been on this committee for 7.5 years, and when I 
first got here, we got focused on PCAs and delays, and you were 
here, and it made us wonder sometimes whether we got anything 
done. Obviously, there was a resource issue and a money issue 
always, but in reality, I am not sure if the term ``post-
mortem'' is appropriate, but I would think that you learned 
some critical things here. And I would hope that some of your 
Federal partners, EPA and other Federal agencies, will be 
working closer with you.
    Any general comments for the record? You do not need to 
give them now.
    Mr. Parker. I have to tell you I was very pleased with the 
reports that I got after the 9/11 attack on seeing the 
interagency work and cooperation that was done. With FEMA, of 
course, this situation came under the Stafford Act, with FEMA 
being the lead agency out there, and I have to tell you EPA, 
everyone, all of the Federal agencies came through very, very, 
and did everything in a very timely fashion. All of a sudden 
time was not that important. Getting the job done and 
protecting lives was the main thing.
    The people in this country should be very proud. It kind of 
makes you wonder why we cannot do things a little faster on a 
regular basis, but I was very pleased with that, and I think 
the General can probably speak to it more specifically because 
I was not confirmed until the end of September, and he was 
involved right in the middle of getting everything done in the 
9/11 attack.
    General Flowers. Yes, sir, we are doing ongoing, after-
action reviews of the response to 9/11, capturing lessons 
learned, sharing them, and I would echo what the Secretary said 
in that the interagency process, when there is a common 
understanding of what needs to be done, can work very, very 
well, and we are trying to leverage off of what we have 
experienced so that we make life better in the future.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Callahan. Thank you, sir.
    Mr. Secretary, we have discussed a little the Columbia 
River Ecosystem Restoration project, and it seems to be a new-
start. In fact, it is included in the request. Whose request 
was it to include this as a new start? Was that your request or 
the Corps' request?
    Mr. Parker. The Endangered Species Act dictated that it be 
a new start. It was asked for by the Corps, and it was approved 
by OMB.
    Mr. Callahan. So you did ask for that.
    Mr. Parker. Yes.
    Mr. Callahan. All right. Now how about the Grand Forks, 
North Dakota, and East Forks, Minnesota, project? They 
recommended an increase from $15 million to $30 million. Was 
that a Corps request?
    Mr. Parker. No, sir, it was not.
    Mr. Callahan. Well, why would OMB decide a project ought to 
have more money than you requested without--did they consult 
with you on this?
    Mr. Parker. No, sir, they did not.
    Mr. Callahan. So someone at OMB decided----
    General Flowers. Sir, we need to correct. We did request 
the full capability.
    Mr. Callahan. But the $15 million was the number that you 
submitted.
    General Flowers. Sir, we asked for the full capability, 
which was the $30 million--more than that. Sorry. We asked for 
full capability. What was passed back to us initially was $15 
million, and then it was subsequently increased.
    Mr. Callahan. And then without any request from you, 
suddenly someone at OMB says, ``Wait a minute here. I like this 
project, so we are going to ask, in a sense, another new start 
or more money for this start than what was there originally--'' 
I find that rather strange, but I find a lot of this strange.
    The supplemental appropriation, which we got for you last 
year, included $139 million for enhanced security at the Corps. 
Can your security requirements for this fiscal year be fully 
met with those funds during this fiscal year?
    General Flowers. Sir, we will know better in April, when we 
complete the assessments. The $139 million was based on an 
initial assessment that was done very quickly following the 
attacks and based on information that we already had available 
to us. But we already know that we are going to spend $268 
million, and we have done that to date in securing our 
facilities.
    Mr. Vining. That is our current estimate of the 
requirements.
    General Flowers. Current estimate for this fiscal year.
    Mr. Callahan. So we gave you $140 million, and you are 
going to spend $268 million?
    General Flowers. $268 million, yes, sir.
    Mr. Callahan. Does some of that come from FEMA or is this 
all of out of your funds?
    General Flowers. It is all out of ours.
    Mr. Vining. Sir, let me clarify. We have, which we had 
submitted as part of the Corps' recommended requirements for 
the DOD appropriation last year, the figure of $268 million, of 
which we ended up getting $139 million. We are updating that 
number, but right now, today, we do not have a better number 
than that $268 million, so that is what we are going with.
    The fiscal year 2002 appropriations bill, as enacted, 
specifically limits our use of O&M funds to meet security 
requirements to that $139-million figure, and so, I mean, we 
are working within that context.
    Mr. Callahan. Do you have a deficit this year----
    General Griffin. Sir, not this year. The $139 million will 
do us for this year. We will be able to reimburse the money we 
used initially to jump-start the program, using O&M dollars. We 
will be able to reimburse that. We will obligate, we expect, 
about the $139 million this year.
    Next year, in the budget right now is $65 million, but that 
is only for guards and law enforcement. So we have another 
amount of money, as the chief said, we will have better figures 
in April, once we know if the initial request of $268 million 
was right or wrong, we will adjust that number, need we will 
request additional infrastructure protection money that we will 
require in 2003 and beyond sometime in the April-May time 
frame.
    Mr. Callahan. Would you think that OMB then would send a 
supplemental request up here requesting more money? Where are 
you going to get the money? Where are we going to get it if we 
comply with their wishes?
    General Griffin. Sir, that will be an issue. We will make 
the request.
    General Flowers. The other funding issue, sir, with the 
security funds, and it was alluded to earlier, and that is on 
the MR&T project. We have a statutory requirement that we 
cannot use O&M funds on MR&T. Since the $139 million that was 
given to us is O&M, we may need some authority help in being 
able to--or reprogramming help--to move some of that money to 
help our infrastructure on the lower Mississippi.
    Mr. Callahan. How much money is included in the 2003 budget 
for security?
    General Griffin. Sir, $65 million right now, but that is 
again just for guards and law enforcement augmentation.
    Mr. Callahan. So it is not sufficient to fulfill your total 
mission.
    General Griffin. No, sir.
    Mr. Callahan. And you would project a $100 million minimum 
addition?
    General Griffin. Sir, on my current estimate, I would 
project about $120 million, as a minimum, that we will require 
in 2003 and beyond. We will have to look at how fast we--how 
much we would actually need in the 2003 time period to meet 
that program we have.
    Mr. Callahan. I have some questions here somewhere about 
the power marketing administrations.
    Oh, yes, the hydropower maintenance program. The amount 
requested for the Operation and Maintenance, General, includes 
$149 million for operation and maintenance of your hydropower 
facilities. If the proposal is to have the PMA directly fund 
O&M, why are you requesting--if you have a proposal saying that 
PMA directly contribute to O&M, why are you requesting 
additional funds?
    Mr. Parker. First of all, it is my understanding that these 
funds are already paid anyway at the end. Because of the----
    General Flowers. But they are paid into the General 
Treasury, sir.
    Mr. Parker. And not to us.
    Mr. Callahan. Not to your O&M account.
    Mr. Parker. And in order for us to stretch these limited 
dollars that we have got, since they are paying it anyway, we 
are basically asking that they paid to us up front so that we 
can utilize that on the maintenance because we are hurting.
    Mr. Callahan. Does that need legislation to--you need 
legislation to change that?
    General Flowers. Yes, sir.
    Mr. Callahan. Would this, in any way, in your opinion, 
jeopardize or possibly create an increase in rates to the 
ultimate end user if we did it this way? There would be no 
further charge to the customers of the PMA?
    Mr. Parker. They are doing it in up-front money instead of 
at the end.
    Mr. Callahan. So it is just the paperwork.
    Mr. Parker. I think that is the case. Yes, sir, that is 
what I understand.
    General Flowers. There would be, for the first year, the 
utilities would have to pay that money up front so that would 
be, if it is $150 million, for example, they would be paying 
$150 million at the beginning of the year versus at the end.
    Mr. Callahan. Do you mean the customers would be paying at 
the beginning of the year instead of the end of the year?
    General Flowers. The utility would.
    Mr. Parker. The PMA itself would be paying that because 
they pass it on to the consumer.
    Mr. Callahan. What do they pay now, monthly into the----
    Mr. Parker. They pay at the end of the time period, from 
what I understand.
    Mr. Callahan. The electrical companies pay at the end of 
the year for the services they received, and the proposal 
advocates that we are going to collect it in advance?
    Mr. Parker. In advance.
    Mr. Callahan. How do you know how much electricity they are 
going to use?
    Mr. Parker. It is from an historical perspective, I 
understand. It is based on the Bonneville Power model because 
they do exactly the same thing, and we are using that same 
model because since they are doing it, we are using that same 
model on these other power marketing authorities.
    General Flowers. We can program the maintenance that is 
required each year. In fact, we do that, sir, as we project 
forward. So that is the amount we would be talking about.
    Mr. Parker. We are not talking about rehab. We are talking 
about maintenance.
    Mr. Callahan. I guess one of those cartoons talks about we 
have met the enemy--well, we have met the enemy, and it is not 
us. It is not us in this room. I really do not think that the 
President of the United States is even aware of how serious 
this issue is and what his people at OMB have advocated in the 
budget request that they prepared for him.
    I am going to make the unique request of the President that 
he meet with this Subcommittee and that this Subcommittee find 
out directly from the President the direction he wants us to 
take. If the President of the United States tells me that the 
suggested amount is the amount he wants, that is what you are 
going to get. But I do not think the President is going to say 
that because I do not think the President has been fully 
informed of what OMB has suggested, where they got their 
information or where they got their documents.
    In any event, this Committee is not going to be the 
Committee that increases the deficit or contributes to an 
increased deficit. We faced this same problem last year when 
OMB, with the very brief tenure that they had to prepare the 
budget, hid behind the fact that they did not have enough time 
to really get into the needs of the Corps. They have had enough 
time. They have had enough input because of you all going 
before them, because of Congressman Visclosky and I explaining 
it to them. They see the need, and 9/11 compounded the 
importance of that, and yet they still, because of reasons 
unknown, have chosen a different route.
    Last year, we were faced with the same proposition, and we 
increased the appropriation. We did include earmarks, but only 
because the Senate did first, and we felt like we had to 
protect our own members in the House, on both sides of the 
aisle, to recognize the importance of their needs as well. But 
it was interesting to note that not one time during that 
process did the President indicate to me or anybody else that 
he was going to veto the bill. As a matter of fact, after we 
passed the bill, the President wrote me a letter and thanked me 
for the bill that we passed, and even sent me the pen that he 
signed the bill with.
    So I really do not think the President is the one 
responsible for this, but we are going to assure the President 
and assure the American people that this Committee is not going 
to be the Committee that contributes to any higher levels of 
deficit spending. We are going to take the President's overall 
request, as I said earlier, and we are going to massage the 
innards of that request, we are going to stay within those 
levels, and we are going to try to come up with a funding level 
for the Corps that meets your resource needs.
    I do not know how successful we will be, and I do not know 
what the President's response is going to be. I am not going to 
do that as a publicity gimmick. I am not going to try to 
embarrass the President. I am just going to ask for a private 
meeting for him to meet with the members of my Subcommittee to 
find out what his true wishes are. Is this really what he wants 
to do, or was this something that was concocted outside his 
limited time or ability to look at every nook and cranny of the 
Federal Government.
    So I think the President will recognize that within his own 
administration, he has an ``axis of evil.'' [Laughter.]
    And that ``axis of evil'' is OMB, and that he better 
address that. But I am optimistic that the President, who 
served as Governor of the State of Texas, who recognizes the 
needs for maintenance of the critical ports that are in Texas, 
the water needs of Texas, the power needs of Texas. He has had 
that experience, and he knows firsthand that this is an 
unrealistic request that OMB has cast upon him.
    We are going to do everything, and I am sure Congressman 
Visclosky and I, along with the other members of our Committee, 
will be able to privately go to the President to assure him 
that we are going to do everything in our power to facilitate 
his every need, as the Chief Administrator and the Commander-
in-Chief of our Army, to give him the resources he needs, 
within that scope of money that he has suggested that the 
Congress spend for the year 2003, but also to inform him that 
we want his support in going along with a redirection of some 
of the priorities that OMB has decided that they want to take.
    So I appreciate your professionalism. I appreciate the 
courtesies all of you have extended to me. On behalf of the 
American people, I appreciate what all of you did after 9/11. I 
have had the opportunity to personally witness your operations 
and actions and see how rapidly you mustered your troops 
together in a time of need of this country, and I see now that 
we are asking you to be in places like Kosovo, and probably we 
are going to be asking you to go to Afghanistan to create, in 
fact, you probably have already been in Afghanistan, some 
facilities for our military there in Guantanamo, all over the 
world. We cannot expect you all to do your job without proper 
tools no more than we can expect the Air Force to go into 
battle without a sufficient number of missiles or airplanes or 
the Navy without sufficient ships or submarines.
    Your tools are just as vital towards the defense of this 
country, as well as the economic aspect that you mentioned, Mr. 
Secretary, as any other branch of the Service. We have got to 
educate some of your superiors in the Pentagon of the 
importance of them personally getting involved in this, and to 
get future Secretaries of Defense, as well as this one, to come 
to your side.
    So I guess what we can say, and actually I did not do too 
well in Latin when I was at McGill Institute, but I did take 
some, and I guess the committee's response to you is to take 
from your motto, Essayons, ``We will try.'' We all have 
additional questions we will submit for the record.
    Thank you, General.
    Mr. Parker. Thank you, sir.
    [Questions submitted for the record follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




</pre></body></html>
